                                  NATIONAL SCIENCE FOUNDATION
                                  OFFICE OF INSPECTOR GENERAL
                                    OFFICE OF INVESTIGATIONS

                              CLOSEOUT MEMORANDUM[



In May 2002, we received an allegation that a professor had committed plagiarism
by distributing a n unpublished manuscript that contained his graduate student's
data and analysis. The complainant did not provide any evidence but may do so
after he graduates. Without evidence to support the allegation, we cannot conduct
an inquiry. Accordingly, this case is closed. If the complainant provides evidence in
the future, we will assess it.




                                                                             OIG-02-2
